No. ______
In the

Supreme Court of the United States
__________________
LARRY BENZON, WARDEN, UTAH STATE PRISON,
Petitioner,
v.
TROY MICHAEL KELL,
__________________

Respondent.

On Petition for Writ of Certiorari to the
United States Court of Appeals
for the Tenth Circuit

__________________

PETITION FOR WRIT OF CERTIORARI
__________________
SEAN D. REYES
Utah Attorney General
TYLER R. GREEN
Utah Solicitor General
Counsel of Record
THOMAS B. BRUNKER
Deputy Solicitor General
ANDREW F. PETERSON
ERIN RILEY
SHANE D. SMITH
Assistant Solicitors General
350 N. State Street, Suite 230
Salt Lake City, UT 84114-2320
(801) 538-9600
tylergreen@agutah.gov
Counsel for Petitioner
Becker Gallagher · Cincinnati, OH · Washington, D.C. · 800.890.5001

i
CAPITAL CASE
QUESTION PRESENTED
Whether a district court’s order staying and abeying
a capital prisoner’s habeas corpus petition under
Rhines v. Weber, 544 U.S. 269 (2005), is immediately
appealable under the collateral-order doctrine.

ii
PARTIES TO THE PROCEEDINGS
1. Petitioner Larry Benzon, Warden of the Utah
State Prison, was the appellant in the court of appeals
and the respondent in district court.
2. Respondent Troy Kell, a prisoner serving a
capital sentence in the Utah State Prison, was the
appellee in the court of appeals and the petitioner in
district court.
LIST OF PRIOR PROCEEDINGS
The Utah Sixth District Court’s judgment
sentencing Kell to death for aggravated murder in
State of Utah v. Kell, case number 941600213, was
entered on August 9, 1996. The Utah Supreme Court’s
opinion affirming Kell’s conviction and sentence, case
number 960377, issued on September 30, 2004, and is
published at 61 P.3d 1019 (Utah 2002).
The Utah Sixth District Court’s judgment denying
post-conviction relief in Kell v. State of Utah, case
number 030600171, was entered on January 23, 2007.
The Utah Supreme Court’s opinion affirming denial of
post-conviction relief, case number 20070234, issued on
September 5, 2008, and is published at 194 P.3d 913
(Utah 2008).
The Utah Sixth District Court’s judgment denying
Kell’s post-judgment motion in Kell v. State of Utah,
case number 030600171, was entered on October 26,
2009. The Utah Supreme Court’s opinion affirming
denial of post-judgment relief, case number 20090998,
issued on May 4, 2012, and is published at 285 P.3d
1133 (Utah 2012).

iii
The United States District Court for the District of
Utah entered a memorandum decision and order
staying Kell’s habeas corpus proceedings in Kell v.
Benzon, case number 2:07-CV-00359-CW, on November
16, 2017. The United States Court of Appeals for the
Tenth Circuit’s order dismissing the Warden’s appeal
from the district court’s stay order, case number 174191, issued on May 28, 2019, and is published at 925
F.3d 448 (10th Cir. 2019).
The Utah Sixth District Court’s judgment denying
Kell’s successive state post-conviction petition in Kell
v. State of Utah, filed after the federal stay and
abeyance, case number 180600004, was entered on
September 4, 2018. Kell appealed that judgment to the
Utah Supreme Court, case number 20180788. Briefing
is not yet complete in Utah Supreme Court, so that
court has not yet heard argument or issued a judgment.

iv
TABLE OF CONTENTS
QUESTION PRESENTED . . . . . . . . . . . . . . . . . . . . i
PARTIES TO THE PROCEEDINGS. . . . . . . . . . . . . ii
LIST OF PRIOR PROCEEDINGS. . . . . . . . . . . . . . . ii
TABLE OF AUTHORITIES. . . . . . . . . . . . . . . . . . . vi
OPINIONS BELOW. . . . . . . . . . . . . . . . . . . . . . . . . . 1
JURISDICTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
RELEVANT STATUTORY PROVISION . . . . . . . . . 1
INTRODUCTION. . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
STATEMENT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4
REASONS FOR GRANTING THE PETITION . . . 14
I. THE COURT SHOULD GRANT REVIEW TO CLARIFY
WHETHER ORDERS GRANTING RHINES STAYS IN
CAPITAL CASES ARE APPEALABLE UNDER THE
COLLATERAL-ORDER DOCTRINE . . . . . . . . . . . . . . 14
A. Whether Rhines Stays in Capital Cases
Are Immediately Appealable Raises
Bedrock Federalism Issues of Exceptional
Importance. . . . . . . . . . . . . . . . . . . . . . . . . . . 14
B. The Courts of Appeals’ Contradictory
Decisions on This Issue Manifest Tension
and Confusion . . . . . . . . . . . . . . . . . . . . . . . . 17
C. The Decision Below Is Wrong . . . . . . . . . . . . 20
II. THIS CASE IS AN EXCELLENT VEHICLE FOR
ADDRESSING THE QUESTION PRESENTED . . . . . . 27

v
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 29
APPENDIX
Appendix A Opinion in the United States Court of
Appeals for the Tenth Circuit
(May 28, 2019). . . . . . . . . . . . . . . . . . . 1a
Appendix B Memorandum Decision and Order in
the United States District Court,
District of Utah, Central Division
(November 16, 2017) . . . . . . . . . . . . . 69a
Appendix C Memorandum Decision and Order in
the United States District Court,
District of Utah, Central Division
(February 9, 2018) . . . . . . . . . . . . . . 84a

vi
TABLE OF AUTHORITIES
CASES
Ariz. Christian Sch. Tuition Org. v. Winn,
563 U.S. 125 (2011). . . . . . . . . . . . . . . . . . . . . . . 21
Blake v. Baker,
745 F.3d 977 (9th Cir. 2014). . . . . . . . . . . . . . . . . 6
In re Blodgett,
502 U.S. 236 (1992). . . . . . . . . . . . . . . . . . . . 13, 14
Calderon v. Moore,
518 U.S. 149 (1996). . . . . . . . . . . . . . . . . . . . . . . 25
Carmichael v. White,
163 F.3d 1044 (8th Cir. 1998). . . . . . . . . . . . 17, 18
Carter v. Friel,
415 F. Supp. 2d 1314 (D. Utah 2006). . . . . . . . . . 6
Christy v. Horn,
115 F.3d 201 (3d Cir. 1997) . . . . . . . . . . . . . 18, 19
Cohen v. Beneficial Indus. Loan Corp.,
337 U.S. 541 (1949). . . . . . . . . . . . . 8, 9, 12, 21, 22
In re Cooper Tire & Rubber Co.,
568 F.3d 1180 (10th Cir. 2009). . . . . . . . . . . . . . 26
Digital Equipment Corp. v. Desktop Direct, Inc.,
511 U.S. 863 (1994). . . . . . . . . . . . . . . . . . . . . . . 21
Grace v. Vannoy,
826 F.3d 813 (5th Cir. 2016). . . . . . . . . . . . . 18, 19
Harrington v. Richter,
562 U.S. 86 (2011). . . . . . . . . . . . . . . . . . . . . . . . 15

vii
Hernandez v. Sullivan,
397 F. Supp. 2d 1205 (C.D. Cal. 2005) . . . . . . . . . 6
Howard v. Norris,
616 F.3d 799 (8th Cir. 2010). . . . . . . . . . 17, 18, 19
Johnson v. Jones,
515 U.S. 304 (1995). . . . . . . . . . . . . . . . . . . . . . . 24
Mitchell v. Forsyth,
472 U.S. 511 (1985). . . . . . . . . . . . . . . . . 12, 22, 23
Mohawk Indus., Inc. v. Carpenter,
558 U.S. 100 (2009). . . . . . . . . . . . . . 13, 21, 24, 26
Oregon v. Ice,
555 U.S. 160 (2009). . . . . . . . . . . . . . . . . . . . . . . 14
Patterson v. New York,
432 U.S. 197 (1977). . . . . . . . . . . . . . . . . . . . . . . 14
Picard v. Connor,
404 U.S. 270 (1971). . . . . . . . . . . . . . . . . . . . . . . 26
Rhines v. Weber,
346 F.3d 799 (8th Cir. 2003). . . . . . . . . . . . . 10, 20
Rhines v. Weber,
544 U.S. 269 (2005). . . . . . . . . . . . . . . . . . . passim
Richardson-Merrell, Inc. v. Koller,
472 U.S. 424 (1985). . . . . . . . . . . . . . . . . . . . . . . . 9
Rose v. Lundy,
455 U.S. 509 (1982). . . . . . . . . . . . . . . . . . . . . . . . 2
Steel Co. v. Citizens for Better Environment,
523 U.S. 83 (1998). . . . . . . . . . . . . . . . . . . . . . . . 21

viii
Swint v. Chambers Cty. Comm’n,
514 U.S. 35 (1995). . . . . . . . . . . . . . . . . . . . . . . . 21
Teague v. Lane,
489 U.S. 288 (1989). . . . . . . . . . . . . . . . . . . . . . . 15
Thompson v. Frank,
599 F.3d 1088 (9th Cir. 2010). . . . . . . . . . . . . . . 18
Will v. Hallock,
546 U.S. 345 (2006). . . . . . . . . . . 11, 13, 20, 21, 25
Williams v. Thaler,
602 F.3d 291 (5th Cir. 2010). . . . . . . . . . . . . . . . 23
Williams v. Walsh,
411 F. App’x 459 (3d Cir. 2011) . . . . . . . . . . 18, 19
Woodford v. Garceau,
538 U.S. 202 (2003). . . . . . . . . . . . . . . . . . . . . 3, 15
STATUTES
28 U.S.C. § 1254(1) . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
28 U.S.C. § 1291 . . . . . . . . . . . . . . . . . . . . . . . . . . 1, 21
28 U.S.C. § 1292(b) . . . . . . . . . . . . . . . . 1, 8, 11, 26, 28
28 U.S.C. § 2244(d) . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
28 U.S.C. § 2254 . . . . . . . . . . . . . . . . . . . . . . . . 5, 6, 28
28 U.S.C. § 2254(b)(1)(A) . . . . . . . . . . . . . . . . . . . . . . 2

1
PETITION FOR A WRIT OF CERTIORARI
Larry Benzon, Warden of the Utah State Prison,
respectfully petitions for a writ of certiorari to review
the judgment of the United States Court of Appeals for
the Tenth Circuit.
OPINIONS BELOW
The divided opinion of the Tenth Circuit is reported
at 925 F.3d 448. Pet. App. 1a-68a. The district court’s
opinion granting Respondent Troy Kell a second Rhines
stay is unreported. Id. at 69a-83a. The district court’s
opinion declining to certify its second Rhines stay for
review under 28 U.S.C. § 1292(b) is unreported. Id. at
84a-90a.
JURISDICTION
The Tenth Circuit issued its opinion on May 28,
2019. This Court has jurisdiction under 28 U.S.C.
§ 1254(1).
RELEVANT STATUTORY PROVISION
28 U.S.C. § 1291 reads in relevant part: “The courts
of appeals (other than the United States Court of
Appeals for the Federal Circuit) shall have jurisdiction
of appeals from all final decisions of the district courts
of the United States . . . .”
INTRODUCTION
This Court has long required a state prisoner’s
federal habeas corpus petition to contain only
exhausted claims—that is, claims previously presented
to the state’s highest court. Petitioners who flout this

2
rule by filing mixed petitions—those with both
unexhausted and exhausted claims—have their
petitions dismissed so state courts get the first chance
to dispose of the claims. Rose v. Lundy, 455 U.S. 509,
510, 518-19 (1982). After prisoners exhaust their
claims, they may return to federal court and file new
petitions.
At least, they always could before Congress passed
the Antiterrorism and Effective Death Penalty Act of
1996. AEDPA adopted Lundy’s complete-exhaustion
requirement. See Rhines v. Weber, 544 U.S. 269, 274
(2005) (citing 28 U.S.C. § 2254(b)(1)(A)). But AEDPA
also adopted a one-year statute of limitations for
federal petitions. See id. at 275 (citing 28 U.S.C.
§ 2244(d)). So now if a district court follows Lundy and
dismisses a mixed petition—but does so more than one
year after the limitations period began to run—a
prisoner would be barred from seeking federal habeas
relief.
In response, district courts began staying and
holding in abeyance mixed habeas petitions to allow
the petitioner to exhaust his claims in State court and
then return to federal court unhindered by AEDPA’s
one-year limitations bar. And in Rhines, this Court
reversed the Eighth Circuit—which had vacated a stayand-abey order on the ground that such orders are
always impermissible—and held that district courts
may use this stay-and-abey procedure “only in limited
circumstances.” 544 U.S. at 277. Rhines emphasized
that stay and abeyance should not be “employed too
frequently” or it would “frustrate[] AEDPA’s objective
of encouraging finality” and “undermine[] AEDPA’s

3
goal of streamlining federal habeas proceedings.” Id.
After all, one of AEDPA’s “purposes is to ‘reduce delays
in the execution of state and federal criminal
sentences, particularly in capital cases.’” Id. at 276
(quoting Woodford v. Garceau, 538 U.S. 202, 206
(2003)). Capital prisoners, the Court observed, pose a
special problem because they do not “have an incentive
to obtain federal [habeas] relief as quickly as possible.”
Id. at 277. Rather, their incentive is to “deliberately
engage in dilatory tactics to prolong their incarceration
and avoid execution of the sentence of death.” Id. at
277-78.
This case tests whether Rhines meant what it said.
A jury sentenced Respondent Troy Kell to death for a
race-motivated murder he committed in prison 25 years
ago. His federal habeas petition has been pending for
10 years. In those 10 years, the district court has
granted him two Rhines stays. The first lasted nearly
three years; the second has been pending for nearly two
years. Convinced that the district court’s second Rhines
stay constitutes an abuse of discretion that irreparably
harms—again—Utah’s sovereign interest in the timely
execution of its criminal judgments, Utah asked the
Tenth Circuit to review that stay under the collateralorder doctrine. By a 2-1 vote, the court of appeals
concluded that the doctrine did not apply and
dismissed the appeal.
If that conclusion is correct, Rhines’s promise that
“circumscribe[d]” discretion would make stays
appropriate “only in limited circumstances,” id. at 27677, is illusory. Whether that is so—or whether the
States can get meaningful, timely appellate review of

4
Rhines stays in capital cases—is a question of
exceptional importance. It warrants plenary review.
STATEMENT
A. Respondent Troy Kell is an avowed white
supremacist. A quarter of a century ago, while already
serving a life-without-parole sentence for murdering a
man in Nevada, Kell murdered fellow inmate Lonnie
Blackmon, an African American. Kell stabbed the
shackled Blackmon 67 times in the eyes, face, neck,
and back, leaving him to bleed to death in the prison
infirmary. See State v. Kell, 61 P.3d 1019, 1024–25
(Utah 2002) (Kell I).
Kell’s guilt for Blackmon’s murder has never been
in doubt: A prison security camera captured the entire
grisly execution. That recording, now widely available
on YouTube, shows Kell twice walk away from the
fatally wounded Blackmon—only to twice return and
compound his carnage. Based on that footage and other
evidence, a jury convicted Kell of aggravated murder
and sentenced him to death. See id.
B. The Utah Supreme Court has reviewed and
affirmed Kell’s conviction and sentence three separate
times. First, it affirmed his conviction and sentence on
direct appeal. Id. at 1038. Second, it affirmed a state
district court’s order denying Kell’s state petition for
post-conviction relief. Kell v. State, 194 P.3d 913 (Utah
2008) (Kell II). Third, when Kell then moved to set
aside the post-conviction judgment against him, the
district court denied his motion, and the Utah Supreme
Court affirmed. Kell v. State, 285 P.3d 1133 (Utah
2012) (Kell III).

5
C. This petition for a writ of certiorari arises from
Kell’s federal habeas corpus proceedings.
1. Kell filed his initial 28 U.S.C. § 2254 petition in
2009, four months after he asked the state postconviction court to set aside its judgment. See Pet. App.
70a-71a. Shortly after that, Kell’s federal habeas
counsel filed a first motion to stay the § 2254
proceedings under Rhines. Counsel sought the stay so
they could help Kell with his then-pending state-court
post-judgment motion. Over the State’s objection, the
district court granted Kell’s motion. See id. at 71a.
2. Kell’s first Rhines stay ended three years later
when the Utah Supreme Court decided Kell III. He
then returned to federal district court and filed an
amended § 2254 petition. See Pet. App. 71a. In that
amended petition, filed in 2013, Kell raised two new
claims, only one of which is relevant here: his claim
that his trial judge allegedly had an off-the-record
discussion with the jury that shifted to him the burden
to prove the jury should not impose death. See id. at
71a, 79a-80a. To support his new claim, Kell attached
declarations from jurors—each signed in May
2012—describing alleged off-the-record interactions
between his trial judge and his jury. Id.
Utah and Kell then litigated his amended § 2254
petition—both its old and new claims—for more than
three years, including conducting extensive discovery.
During those more than three years, Kell never moved
for a second Rhines stay to facilitate pursuing his new
claim in state court. Nor did he file a separate state
post-conviction petition raising the new claim.

6
After those years of intensive litigation, the district
court scheduled oral argument on Kell’s amended
§ 2254 petition for August 2017. But on the eve of final
decision—after argument on his petition, and more
than five years after he obtained the affidavits that he
claimed supported his new claim—Kell moved for a
second stay under Rhines so he could return to state
court and exhaust his new claim.
3. Over Utah’s objection, the district court granted
Kell’s motion and entered a second Rhines stay. Pet.
App. 69a-83a. The court concluded that Kell satisfied
each of the three Rhines factors: (1) there was good
cause for his failure to exhaust, (2) his new claim was
potentially meritorious, and (3) his motion was not
abusive or intentionally dilatory.
On the first factor, the district court acknowledged
a lower-court split about what constitutes good cause
for a Rhines stay. Id. at 72a-73a. The court ultimately
rejected Utah’s argument that “good cause in the
Rhines context is akin to good cause to excuse
procedural default in federal court.” Id. at 72a; see
Carter v. Friel, 415 F. Supp. 2d 1314, 1319 (D. Utah
2006); Hernandez v. Sullivan, 397 F. Supp. 2d 1205,
1207 (C.D. Cal. 2005). Instead, the court agreed with
Kell and with the Ninth Circuit that Rhines good cause
is “a more expansive and equitable reading of good
cause (which is a lower standard that allows the claim
to return to the state court for merits review).” Id. at
72a; see id. at 74a (citing Blake v. Baker, 745 F.3d 977,
982 (9th Cir. 2014)). The court concluded that Kell’s
“post-conviction counsel’s deficient performance” for not

7
raising his new claim “constitutes cause under Rhines.”
Pet. App. 75a.
On the second factor (potential merit), the district
court expressly refused to “address” whether state-law
time and procedural bars would preclude merits review
of Kell’s new claim. Id. at 76a. Nor did the district
court acknowledge Utah’s argument that the federal
time bar would preclude merits review. In the end,
after refusing to consider the dispositive procedural
problems with Kell’s new claim, the court held that his
claim was potentially meritorious. Id. at 79a-81a. But
rather than look at the claim’s merits, the district court
reasoned that Kell’s post-conviction counsel’s “failure
to raise this potentially meritorious claim constitutes
good cause under Rhines.” Id. at 81a.
On the third factor, the district court disagreed that
Kell had intentionally and abusively delayed the
litigation by waiting five years after obtaining his new
evidence to seek a stay. Id. at 81a-83a. This was so, the
court said, because Kell had indicated—in “one
sentence buried in a 208-page reply brief to his
petition,” id. at 45a n.1—that he would file a second
Rhines stay “at the appropriate time,” id. at 82a, and
because the parties stipulated to a case management
schedule in 2013, see id.
D. Consistent with Rhines’s teaching that a stay of
a capital prisoner’s habeas petition can “constitute[] an
abuse of discretion,” 544 U.S. at 279, Utah sought the
Tenth Circuit’s interlocutory review of the district
court’s second Rhines stay. It did so through two
alternative routes. First, it asked the district court to
certify the order for Tenth Circuit review under 28

8
U.S.C. § 1292(b). The district court refused. See Pet.
App. 84a-90a.
Second—and leading to the decision now presented
for review—Utah sought review under the collateralorder doctrine. See Cohen v. Beneficial Indus. Loan
Corp., 337 U.S. 541, 546 (1949). In a 2-1 decision, the
Tenth Circuit concluded that Rhines stays are not
immediately appealable collateral orders and dismissed
Utah’s appeal for lack of jurisdiction. Pet. App. 1a-68a.
1. Writing for the panel majority, Judge Bacharach
applied Cohen’s familiar three-part test, recognizing
that Rhines stays are immediately appealable only if
they (1) “conclusively decide[] the disputed question,”
(2) “resolve[] an important issue separate from the
merits, and” (3) “could not be effectively reviewed on
direct appeal.” Pet. App. 6a. The majority assumed that
“a Rhines stay conclusively determines the disputed
question,” id. at 7a, thus satisfying Cohen’s first
element. But it concluded that orders granting Rhines
stays do not satisfy Cohen’s second and third elements.
a. The majority reasoned that Rhines stays are not
completely separate from the merits and thus fail
Cohen’s second element. The majority believed that
interlocutory review “would often require federal
appellate courts to consider the merits at least twice:”
first on interlocutory appeal and “again after entry of
the judgment.” Id. at 8a. In the majority’s view, that
was because the second Rhines factor looks at
“‘potential merit,’” which “is obviously not ‘completely
separate’ from the actual merits.” Id. at 11a.

9
Applying its reading of the complete-separation
element, the majority rejected Utah’s argument that
what constitutes good cause for a Rhines stay is an
issue completely separate from the merits. Id. at 13a19a. The majority also suggested that Utah did not
argue that “timeliness, dilatoriness, and procedural
default are separate from the merits.” Id. at 20a. Even
so, the majority “would not” have found those questions
to “constitute important issues, as required to trigger
the collateral-order doctrine.” Id. at 21a.
The majority ended its analysis of Cohen’s second
element by invoking this Court’s teaching that “the
collateral-order doctrine cannot apply absent complete
separation for the entire class of orders.” Id. at 22a
(citing Richardson-Merrell, Inc. v. Koller, 472 U.S. 424,
439 (1985)). To the majority, that meant “consider[ing]
the issues in all grants of stays under Rhines” when
deciding whether Rhines stays as a class “entail[]
complete separation from the merits.” Id. at 23a. The
majority supported this conclusion by citing this
Court’s “handling of qualified immunity,” id., which the
majority viewed as “considering the issues arising in
the entire class of” qualified-immunity orders “rather
than in the particular case being reviewed,” id. at 24a.
b. The majority also held that a Rhines stay in a
capital case can be effectively reviewed following final
judgment, meaning Cohen’s third element is not met.
The majority specifically rejected Utah’s argument
that Rhines stays are “unreviewable after a final
judgment because (1) the loss of time can never be
remedied and (2) the grant of a stay becomes moot
upon entry of a final judgment.” Id. at 26a. The

10
majority acknowledged that “delay is unreviewable
because a court can’t restore Utah’s lost time.” Id. But,
it continued, “ordinarily” the “loss of time” is not
“sufficiently important to trigger the collateral-order
doctrine.” Id. The majority believed that Rhines stays
do not differ from “most” routine “pretrial decisions”
not subject to immediate appeal. Id. That was so—even
though “swift action” in habeas cases “is essential,” id.
at 29a—because Congress’s countervailing “effort to
avoid piecemeal review,” id. at 31a, outweighed the
States’ interests in “enforc[ing] criminal judgments,
especially those involving capital sentences,” id. at 29a.
The majority also rejected Utah’s argument that a
final judgment will moot a State’s objection to a Rhines
stay. It reasoned that “[b]ecause the district court’s
ultimate rulings on the habeas claims would be
reviewable after the final judgment, the collateralorder doctrine’s third element would remain
unsatisfied even if the grant of a Rhines stay were to
become moot.” Id. at 36a.
c. Finally, the majority disagreed with Utah’s
argument that Rhines itself supports collateral-order
review since the Eighth Circuit’s order that this Court
reviewed in Rhines expressly rested on collateral-order
jurisdiction. See Rhines v. Weber, 346 F.3d 799, 800
(8th Cir. 2003). The majority concluded that because
the Eighth Circuit decision reviewed in Rhines applied
a different test to determine whether district courts
should stay mixed habeas petitions, the Eighth
Circuit’s interlocutory review of the stay order
“supplies no meaningful guidance” over whether

11
interlocutory review of a Rhines stay is similarly
appropriate. Id. at 38a.
2. Judge Baldock dissented. He faulted the majority
for “neglecting to put the grant of a Rhines stay in the
proper context of AEDPA” and “severely understat[ing]
a state’s important interest in executing its sentence of
death without delay.” Id. at 40a.
After reviewing AEDPA’s backdrop and purposes,
id. at 40a-43a, the dissent recounted this case’s
extensive procedural history, id. at 43a-48a, including
two of its more troubling aspects: The district court’s
“confusing[]” choice to “conclude[] [Kell’s] claim was
potentially meritorious without analyzing whether the
claim was potentially meritorious,” id. at 47a, and its
“odd[]” refusal to grant Utah’s request for § 1292(b)
certification, id. at 48a. The dissent then explained why
Rhines stays belong in the “‘narrow and selective’”
group of appealable collateral orders. Id. at 50a
(quoting Will v. Hallock, 546 U.S. 345, 350 (2006)).
a. Judge Baldock found “at least three” issues in
Rhines stays to be “‘completely separate’ from the
merits.” Id. at 53a. First, what is “the appropriate
standard for ‘good cause’” to support a Rhines stay? Id.;
see id. at 53a-55a. Second, should district courts
“consider state time and procedural bars in
determining whether a claim is ‘potentially
meritorious’”? Id. at 55a. And third, has the petitioner
“engaged in intentionally dilatory litigation tactics”? Id.
at 56a. The first two issues are “purely legal,” and “the
facts involved” with the third “are completely separate
from the facts involved in a petitioner’s unexhausted
claim.” Id.

12
Judge Baldock differed with the majority “on
exactly what must be separate in order to satisfy”
Cohen’s second element. Id. at 51a. The majority held
that “the entire collateral order must be completely
separate from the merits,” but he concluded that it is
sufficient if “at least one issue involved in granting a
Rhines stay” is “completely separate from the merits.”
Id. In Judge Baldock’s view, “[t]his is clearly what the
Supreme Court has required.” Id. (citing cases). And it
comports with this Court’s “explicit rejection of the
argument that there must be no overlap whatsoever
between a collateral order and the merits of a claim.”
Id. at 52a (citing Mitchell v. Forsyth, 472 U.S. 511, 529
n.10 (1985)).
Judge Baldock did adhere to “the well-settled
requirement that we must focus on the class of orders.”
Id. at 52a-53a. And he “agree[d]” with the majority that
“analyzing case-specific issues” is “unacceptable.” Id. at
53a. But he recognized that the majority contradicted
this Court’s precedent by “look[ing] to issues that any
order granting a Rhines stay could hypothetically
raise,” and denying collateral-order jurisdiction “if any
of these issues overlap with the merits.” Id.
b. Judge Baldock concluded that a Rhines stay is
effectively unreviewable on appeal, thus satisfying
Cohen’s third element. Id. at 58a. He agreed that
Utah’s objections to a Rhines stay “would be moot on
appeal” from a final judgment, id., because a court of
appeals cannot “possibly grant the State” relief for an
improper stay granted “years earlier,” id. at 59a.
And even if a Rhines stay were reviewable after a
final judgment, “the importance of the interests at

13
stake” also justifies collateral-order review. Id. at 60a.
The “‘decisive consideration is whether delaying review
until the entry of final judgment would imperil a
substantial public interest or some particular value of
a high order.’” Id. (quoting Mohawk Indus., Inc. v.
Carpenter, 558 U.S. 100, 107 (2009) (internal quotation
marks omitted)).
Delaying review of a Rhines stay “resounding[ly]”
imperils the substantial public interest and high-order
value in a State’s right to timely “enforce its criminal
judgments, particularly in capital cases.” Id. at 60a61a. That conclusion inevitably follows from this
Court’s recognition that “States suffer ‘severe prejudice’
when they are prevented from exercising” their
“‘sovereign power to enforce the criminal law.’” Id. at
61a (quoting In re Blodgett, 502 U.S. 236, 239 (1992)
(per curiam)). And it is magnified by AEDPA’s purpose
“to ‘reduce delays in the execution of state and federal
criminal sentences, particularly in capital cases.’” Id.
(quoting Rhines, 544 U.S. at 276). The precedent and
statute combine to make “a state’s ability to enforce its
criminal judgments without delay . . . a ‘substantial
public interest’ or ‘value of a high order’ that ranks
among” those previously held sufficient to justify
collateral-order jurisdiction: “‘honoring the separation
of powers, preserving the efficiency of government and
the initiative of its officials, respecting a State’s
dignitary interests, and mitigating the government’s
advantage over the individual.’” Id. at 62a (quoting
Will, 546 U.S. at 352-53).

14
REASONS FOR GRANTING THE PETITION
I. THE COURT SHOULD GRANT REVIEW TO CLARIFY
WHETHER ORDERS GRANTING RHINES STAYS IN
CAPITAL CASES ARE APPEALABLE UNDER THE
COLLATERAL-ORDER DOCTRINE.
A. Whether Rhines Stays in Capital Cases Are
Immediately Appealable Raises Bedrock
Federalism Issues of Exceptional
Importance.
Plenary review is warranted here because Rhines
stays in capital cases implicate the fundamental
federalism concerns of when, and the extent to which,
federal courts may interfere with the States’
administration of criminal justice.
“[P]reventing and dealing with crime is much more
the business of the States than it is of the Federal
Government.” Patterson v. New York, 432 U.S. 197, 201
(1977). And the States’ authority “over the
administration of their criminal justice systems lies at
the core of their sovereign status.” Oregon v. Ice, 555
U.S. 160, 170 (2009). Because administering justice is
an adjunct of sovereignty, the States suffer “severe
prejudice” when federal obstacles improperly prevent
them from exercising their “sovereign power to enforce
the criminal law.” In re Blodgett, 502 U.S. at 239 (per
curiam).
Habeas review squarely implicates those sensitive
federalism concerns. Federal habeas review “disturbs
the State’s significant interest in repose for concluded
litigation, denies society the right to punish some
admitted offenders, and intrudes on state sovereignty

15
to a degree matched by few exercises of federal judicial
authority.” Harrington v. Richter, 562 U.S. 86, 103
(2011) (citation and internal quotation marks omitted).
And when federal habeas review unjustifiably hinders
the workings of the States’ criminal-justice systems,
“the criminal law is deprived of much of its deterrent
effect.” Teague v. Lane, 489 U.S. 288, 309 (1989).
Congress concluded that those concerns reach their
apex in capital cases. In fact, one of Congress’s specific
purposes for passing the Antiterrorism and Effective
Death Penalty Act was to “reduce delays in the
execution of state and federal criminal sentences,
particularly in capital cases.” Woodford, 538 U.S. at
206.
Rhines recognized those concerns and tried to tailor
its stay-and-abey procedure to them. Because AEDPA
“circumscribe[s]” a district court’s “discretion,” 544 U.S.
at 276, Rhines makes stays “available only in limited
circumstances” and prohibits district courts from
“employ[ing] [them] too frequently,” id. at 277. A
contrary approach creates at least three problems.
First, it incents “capital petitioners” to “deliberately
engage in dilatory tactics to prolong their incarceration
and avoid execution of the sentence of death.” Id. at
277-78. Second, it “frustrates AEDPA’s objective of
encouraging finality by allowing a petitioner to delay
the resolution of the federal proceedings.” Id. at 277.
Third, it “undermines AEDPA’s goal of streamlining
federal habeas proceedings by decreasing a petitioner’s
incentive to exhaust all of his claims in state court
prior to filing his federal petition.” Id.

16
Regrettably, district courts routinely misapply
Rhines, thereby producing the three specific harms
Rhines sought to avoid. Utah’s experience exemplifies
the problem. Take just this case: it’s an appeal from
Kell’s second stay under Rhines. And the problem
extends beyond Kell. Rhines stays have become the
norm in Utah. Seven capital prisoners in Utah have
requested Rhines stays. The State did not object to one
of those requests, but opposed the remaining six, and
four of those were granted. See Pet. App. 33 n. 16. In
these circumstances, “AEDPA has no teeth”—despite
Rhines’s best efforts—since “federal habeas law still
leads to piecemeal and repetitious litigation, and years
of delay between sentencing and judicial resolution as
to whether the sentence was permissible under law.”
Pet. App. 61a (internal quotation marks omitted).
The misapplication of Rhines in capital cases is
troubling enough, but the States’ inability to do
anything about it is the heart of the problem. As
discussed below, the current majority position is that
Rhines stays in capital cases are not reviewable
collateral orders. See Section I.B. If that is correct, and
circuit courts must wait until long after a stay in a
capital case has expired to review the district court’s
circumscribed discretion, federal district courts become
complicit in “frustrat[ing] AEDPA’s goal of finality by
dragging out indefinitely” a capital prisoner’s “federal
habeas review.” Rhines, 544 U.S. at 278. Because
precluding collateral review exacerbates the very
federalism concerns Rhines sought to quell, the States
deserve to have this Court confirm whether that
outcome is appropriate.

17
B. The Courts of Appeals’ Contradictory
Decisions on This Issue Manifest Tension
and Confusion.
An issue as exceptionally important as this one
demands a single national rule. No such rule exists.
Instead, the States face intolerable tension and a lack
of clarity in the circuits about whether orders stayingand-abeying a capital prisoner’s federal habeas petition
are immediately appealable under the collateral-order
doctrine.
Like the panel majority, the Eighth Circuit has
declined to apply the collateral-order doctrine to a
district-court order granting a Rhines stay in a capital
case. Howard v. Norris, 616 F.3d 799, 802-03 (8th Cir.
2010). But even that opinion displays uncertainty.
First, and “[s]ignificantly,” the warden in Howard did
“not challenge the district court’s application of the
three Rhines factors, and thus d[id] not challenge the
delay involved in the stay itself.” Id. at 803. Instead,
the warden challenged “the propriety of the stay only
as it relates to the merits of whether the district court
erred in concluding some of [the prisoner’s] claims were
unexhausted.” Id. And that issue, the Eighth Circuit
reasoned, “can be addressed on appeal after final
judgment.” Id.
Second, Howard recognized that the Eighth Circuit
had previously held an order staying a habeas petition
to be an immediately appealable collateral order. See
Howard, 616 F.3d at 802 (citing Carmichael v. White,
163 F.3d 1044, 1045 (8th Cir. 1998)). But it viewed
Carmichael “as being concerned about the delay
involved in a stay, because the delay itself cannot be

18
undone on appeal from a final judgment.” Howard, 616
F.3d at 802. And it thought this Court’s decision in
Rhines made “Carmichael’s rationale for employing the
collateral order doctrine . . . no longer applicable.” Id.
at 803. According to Howard, “Rhines conclusively
decided a reasonable delay for a petitioner’s trip to
state court and back, to exhaust unexhausted claims,
is justified in limited circumstances.” Id. But that is
question-begging: Collateral review lets States test
whether any stay properly falls within those limited
circumstances.
In contrast, and consistent with the dissent below,
the Third Circuit has found that a stay-and-abeyance
order in a capital case is reviewable under the
collateral-order doctrine. Christy v. Horn, 115 F.3d 201,
206 (3d Cir. 1997). To be sure, that decision predates
Rhines. But the Third Circuit continues to apply it
after Rhines. See Williams v. Walsh, 411 F. App’x 459,
461 (3d Cir. 2011) (per curiam). Indeed, Williams is
revealing. Relying on Christy, Williams exercised
collateral-order jurisdiction over a district-court order
denying a Rhines stay in a non-capital case. Id. at 459.
Because the Third Circuit deemed those facts sufficient
to justify the post-Rhines exercise of collateral-order
jurisdiction, it’s hard to imagine the Third Circuit
declining to exercise collateral-order jurisdiction over
an order granting a Rhines stay in a capital case.
Two other circuit decisions bear a brief mention.
The Fifth and Ninth Circuits have held that Rhines
stays are not appealable collateral orders. Grace v.
Vannoy, 826 F.3d 813, 821 (5th Cir. 2016); Thompson
v. Frank, 599 F.3d 1088, 1090 (9th Cir. 2010). Neither

19
case, however, involved a stay in a capital case, and the
Fifth Circuit suggested that distinction could be
relevant because a non-capital petitioner will not seek
stays to delay his case. See Grace, 826 F.3d at 819
(suggesting that State’s interests “are not appreciably
more valuable than every other litigant’s” because
petitioner “was sentenced to life in prison; he is not
delaying execution of a capital sentence”). The circuit’s
apparent reliance on that distinction only confirms why
the States need this Court’s guidance for this capitalcase-specific context.
In short, the tension and lack of clarity in circuit
precedent about whether a stay of a capital prisoner’s
federal habeas petition is an appealable collateral order
warrants plenary review. Howard and the majority
opinion below diverge from Williams, Christy, and the
dissent below about whether States must wait for years
after Rhines stays have expired before seeking review
of them. They also diverge on whether Rhines itself
sheds any light on a stay’s immediate appealability.
Further percolation on this question will not produce
additional meaningful analysis; most of the States with
capital punishment reside in a circuit that has already
addressed whether Rhines stays are appealable. So
without this Court’s intervention, only States in the
Third Circuit have a continuing claim of right to
immediate appellate review of a district-court order
unjustifiably staying a capital prisoner’s federal habeas
proceedings. That geography-dependent outcome is
intolerable for States not named Delaware, New
Jersey, or Pennsylvania.

20
C. The Decision Below Is Wrong.
1. Read fairly, this Court’s opinion in Rhines
supports the exercise of collateral-order jurisdiction to
review a stay in a capital case. The Eighth Circuit
order this Court reviewed in Rhines was expressly
based on the collateral-order doctrine. Rhines v. Weber,
346 F.3d 799, 800 (8th Cir. 2003) (per curiam) (“We
have jurisdiction under the collateral order doctrine to
review an interlocutory order holding a habeas petition
in abeyance pending exhaustion of state court
remedies.”). If the Eighth Circuit had lacked collateralorder jurisdiction, the only appropriate outcome in
Rhines would have been to vacate the Eighth Circuit’s
judgment and “remand the case with instructions to
dismiss the appeal for lack of jurisdiction.” Will, 546
U.S. at 354 (following that course when the Second
Circuit erroneously exercised collateral-order
jurisdiction). This Court did not do that in Rhines, but
rather proceeded to the merits. Rhines, 544 U.S. at
276-79.
Beyond that, after stating that the district court’s
stay should be reviewed for “abuse of discretion,” id.,
this Court remanded the case to the Eighth Circuit
with instructions to apply its three-part test on
collateral review—“to determine, consistent with this
opinion, whether the District Court’s grant of a stay in
this case constituted an abuse of discretion.” Id. at 279.
No waiting for a final judgment—the Eighth Circuit
was to act now.
Utah recognizes, of course, that “[w]hen a potential
jurisdictional defect is neither noted nor discussed in a
federal decision, the decision does not stand for the

21
proposition that no defect existed.” Ariz. Christian Sch.
Tuition Org. v. Winn, 563 U.S. 125, 144 (2011). Yet if
Rhines is a “drive-by jurisdictional ruling[],” Steel Co.
v. Citizens for Better Environment, 523 U.S. 83, 91
(1998), it was a slow-roller with obvious implications
for the circuits’ power to superintend stays in capital
habeas cases.
2. Even putting aside Rhines’s jurisdictional
implications, the majority opinion does not comport
with the Court’s collateral-order doctrine
jurisprudence.
Utah readily acknowledges that doctrinal
limitations disfavor requests to add another kind of
order to the list of those subject to collateral-order
review. Cohen’s conditions “are ‘stringent,’” Will, 546
U.S. at 349 (quoting Digital Equipment Corp. v.
Desktop Direct, Inc., 511 U.S. 863, 868 (1994)); the
collateral-order doctrine has a “modest scope,” id. at
350; and this Court has kept the list of orders subject
to it “narrow and selective in its membership,” id., so
the doctrine does not overrun § 1291’s finality
requirement.
But Utah’s request clears those high hurdles. Stay
orders in capital habeas cases present “‘important
questions separate from the merits.’” Mohawk Indus.,
558 U.S. at 107 (quoting Swint v. Chambers Cty.
Comm’n, 514 U.S. 35, 42 (1995)). Viewed as a class, see
Pet. App. 21a-25a; 52a-53a, stay orders in capital cases
never require a circuit court to determine whether the
petitioner is entitled to habeas relief. Rather, the
important question in every appeal from a Rhines stay
in a capital case is whether a federal court improperly

22
frustrated AEDPA and abused its discretion by adding
more delay to the execution of the State’s
presumptively valid sentence—not whether that
sentence (or underlying conviction) is illegal.
No doubt, the specific details of a petitioner’s
unexhausted claim—what it is and the facts relevant to
it—will almost always be part of the story in any
collateral appeal from a Rhines stay. That conclusion
seems unavoidable since Rhines’s second query
examines the claim’s potential merit. But see Pet. App.
47a (here, “the district court concluded Petitioner’s
claim was potentially meritorious without analyzing
whether the claim was potentially meritorious”).
Yet that potential overlap does not itself insulate
Rhines stays from collateral-order review. This Court
has already rejected “the argument that there must be
no overlap whatsoever between a collateral order and
the merits of a claim.” Id. at 52a (citing Mitchell, 472
U.S. at 529 n.10). Indeed, the Court already has held
that a number of legal questions—the availability of
certain immunities or a double-jeopardy defense—are
“separate from the merits of the underlying action for
purposes of the Cohen test even though a reviewing
court must consider the plaintiff’s factual allegations in
resolving the immunity” or double-jeopardy issues.
Mitchell, 472 U.S. at 528-29.
So too for Rhines stays. An appeal of an order
staying a capital habeas case asks whether the added
delay in executing the State’s presumptively valid
sentence is justified, and that question always hinges
on legal conclusions unrelated to the merits of a
petitioner’s claim. Some examples: Did the prisoner

23
adequately show good cause? Id. at 54a-55a. Do state
or federal time or procedural bars preclude the claim?
See, e.g., Williams v. Thaler, 602 F.3d 291, 309 (5th Cir.
2010) (“when a petitioner is procedurally barred from
raising his claims in state court, his unexhausted
claims are plainly meritless” (internal quotation marks
and brackets omitted)). Beyond that, even some mixed
questions of fact and law—was the petitioner’s stay
request abusive or dilatory?—hinge on facts separate
from the merits. See id. Pet. App. 56a. Each of these
questions is “separate from the merits of” the prisoner’s
unexhausted claim even if facts about that claim relate
to them. Mitchell, 472 U.S. at 528-29.
At bottom, then, interlocutory appeals of Rhines
stays will not “require federal appellate courts to
consider the merits at least twice”—or more, “if the
district court enters multiple Rhines stays.” Id. at 8a.
(The very thought that district courts would enter
multiple Rhines stays cannot be squared with this
Court’s commands that they “be available only in
limited circumstances” and not “employed too
frequently.” 544 U.S. at 277.)
To put a finer point on it, States and federal courts
could assume the unexhausted claim were meritorious,
and other legal conclusions entirely separate from the
underlying claim still would warrant immediate
appellate review. In this vein, the majority below
correctly concluded that collateral review in qualifiedimmunity cases provides a ready analogy, Pet. App.
23a-24a, but not for the reasons the majority thought.
Orders denying qualified immunity are immediately
appealable when they present “purely legal issue[s],”

24
such as whether an alleged set of facts constituted a
violation of clearly established law; but not when they
hinge on factual issues, such as what “a party may, or
may not, be able to prove at trial.” See Johnson v.
Jones, 515 U.S. 304, 313 (1995). Those distinctions
readily apply in the Rhines context. If a Rhines stay
really did depend on the facts underlying a petitioner’s
unexhausted claim, the circuit courts could decline to
exercise collateral-order jurisdiction over a State’s
appeal from that stay, as they do in immunity cases.
Otherwise, the circuit court could review the purely
legal questions dispositive on whether a State must
endure the continued delay a stay causes. The Tenth
Circuit’s failure to draw those conclusions from
Johnson, see Pet. App. 24a, warrants reversal.
“More significantly,” the panel majority disregarded
Congress’s and this Court’s existing “judgment[s] about
the value of the interests that would be lost” if Rhines
stays are not immediately appealable. Mohawk Indus.,
558 U.S. at 107 (internal quotation marks omitted).
Those judgments decisively support collateral review.
Improper Rhines stays undermine AEDPA by
compounding “delays in the execution of state and
federal criminal sentences, particularly in capital
cases,” and by “decreasing a petitioner’s incentive to
exhaust all of his claims in state court prior to filing his
petition.” 544 U.S. at 276-77 (internal quotation marks
omitted). And they encourage capital prisoners to
“deliberately engage in dilatory tactics to prolong their
incarceration and avoid execution of the sentence of
death.” Id. at 277-78.

25
These critical interests are cut from the same cloth
as those the Court has previously held sufficient to
justify collateral-order review: “‘honoring the
separation of powers, preserving the efficiency of
government and the initiative of its officials, respecting
a State’s dignitary interests, and mitigating the
government’s advantage over the individual.’” Pet. App.
62a (quoting Will, 546 U.S. at 352-53). So they deserve
the same right to immediate appellate review.
It’s no answer to say, as the panel majority did, that
Rhines stays can be reviewed on appeal from a final
judgment. Id. at 36a. Not so. The harm from an
improper Rhines stay is the unwarranted delay in the
execution of a State’s criminal sentence. That harm “is
unreviewable because a court can’t restore Utah’s lost
time.” Id. at 26a. And that harm decidedly is not the
same as “lost time” for “most pretrial matters,” id.—it’s
harm that Congress tried to remedy with a 1996
statute expressly designed to “reduce delays” in the
execution of sentences “in capital cases.” Rhines, 544
U.S. at 276 (internal quotation marks omitted).
What is more, the panel majority’s recognition that
this harm is irremediable after a final judgment
explains why a State’s objections to a Rhines stay will
always be moot absent interlocutory review. Calderon
v. Moore, 518 U.S. 149, 150 (1996) (per curiam) (noting
mootness arises when “a court of appeals cannot grant
any effectual relief whatever” (internal quotation
marks omitted)). Even so, the majority suggested that
a State’s objection might not become moot if the district
court grants merits relief because the court of appeals
could reverse the entry of a Rhines stay and find the

26
claim unexhausted. Pet. App. 34a-35a & n.18. But
“once the federal claim has been fairly presented to the
state courts, the exhaustion requirement is satisfied.”
Picard v. Connor, 404 U.S. 270, 275 (1971). Picard
prevents an appellate court from “unexhausting” a
now-exhausted claim—before or after a district court
enters final judgment on a habeas petition.
Finally, States have no other meaningful way to
“adequately vindicate[]” their objections to improper
Rhines stays. Mohawk Indus., 558 U.S. at 107. This
very case shows that review under 28 U.S.C. § 1292(b)
is at best theoretical. See Pet. App. 84a-90a (denying
Utah’s request for § 1292(b) certification). And
requiring a State to seek mandamus relief, as the panel
majority recommends, Pet. App. 34a n.17, does not
comport with Rhines’s holding that stays of capital
habeas cases should be reviewed for “abuse of
discretion,” 544 U.S. at 279. “The standard for issuing
a writ of mandamus is higher than the abuse of
discretion standard.” Pet. App. 59a n.6. Channeling all
State objections to Rhines stays through mandamus
will clog the circuit courts with petitions that need to
show “more than what” the circuits “would typically
consider to be an abuse of discretion.” In re Cooper Tire
& Rubber Co., 568 F.3d 1180, 1186 (10th Cir. 2009)
(emphasis added). Reading Rhines to require States to
make that showing either changes Rhines’s careful
cabining of district courts’ discretion or denies the
States a remedy for abusive stays.

27
II. THIS CASE IS AN EXCELLENT VEHICLE
ADDRESSING THE QUESTION PRESENTED.

FOR

No vehicle problems will prevent this Court from
deciding the question presented. First, the facts—about
Kell’s murder of Blackmon, when and how Kell
obtained the new evidence upon which he based his
unexhausted claim, and his five-year delay in seeking
a second Rhines stay—are undisputed.
Second, the Tenth Circuit decided the case on
jurisdiction alone. Its split decision thoroughly vets the
competing positions on this question. And because most
of the circuits where States impose capital punishment
have considered a Rhines stay’s appealability, this
question is ripe for review now, without further
percolation.
Third, reversing the Tenth Circuit’s decision will
result in merits review of the district court’s second
stay order. That, in turn, will result in reversal of the
stay—and an end to Kell’s now-decade-old federal
habeas litigation—because the district court abused its
discretion on several fronts. At a minimum, it
“concluded Petitioner’s claim was potentially
meritorious without analyzing whether the claim was
potentially meritorious.” Id. at 47a. It “did not consider
the State’s arguments that the claim would be timebarred or procedurally barred in state court.” Id. at
46a. “Not surprisingly, the state trial court has since
rejected this claim as both time and procedurally
barred,” id. at 47a, though the Utah Supreme Court
has yet to vet this conclusion. And it excused Kell’s
five-year delay in asking for a second Rhines stay only
because Kell had indicated—in “one sentence buried in

28
a 208-page reply brief to his petition,” id. at 45a—that
he would file a second Rhines stay “at the appropriate
time,” id. at 82a, and because the parties stipulated to
a case management schedule in 2013, see id.
Fourth, the proceedings here confirm that
collateral-order review is the States’ only meaningful
route to appellate review of a Rhines stay. The district
court denied Utah’s motion for certification under 28
U.S.C. § 1292(b). And a mandamus petition requires
States to bear a heavier burden than Rhines imposed.
*****
Prison cameras captured Kell’s race-motivated
execution of Blackmon more than 25 years ago. His
§ 2254 petition has been pending for ten years plus.
Three of those years are delay from his first Rhines
stay. His second Rhines stay has added nearly two
more years of delay—and counting. (The district court
has not “continued with the [§ 2254] proceedings,” as
the panel majority erroneously claimed. Pet. App. 2a.
Consistent with the nature of a stay, nothing has
happened in Kell’s § 2254 petition since the second
Rhines stay.)
If this is what the Court meant when it said that
AEDPA “circumscribe[s]” a district court’s discretion to
stay capital habeas proceedings, Rhines, 544 U.S. at
276—and that stays “should be available only in
limited circumstances” and not “employed too
frequently,” id. at 277—Rhines might have been
plainer and said district courts should stay capital
habeas cases as a matter of course. But if the Court
“clearly intended there to be meaningful restrictions on

29
when a district court may issue a Rhines stay” in a
capital case, Pet. App. 68a, it should grant this petition
and confirm that the courts of appeals may say so. For
if the courts of appeals lack that authority, the
restrictions Rhines purported to place on district
courts’ discretion are chimerical.
CONCLUSION
The Court should grant the petition for a writ of
certiorari.
Respectfully submitted.
SEAN D. REYES
Utah Attorney General
TYLER R. GREEN
Utah Solicitor General
Counsel of Record
THOMAS B. BRUNKER
Deputy Solicitor General
ANDREW F. PETERSON
ERIN RILEY
SHANE D. SMITH
Assistant Solicitors General
350 N. State Street, Suite 230
Salt Lake City, UT 84114-2320
(801) 538-9600
tylergreen@agutah.gov
Counsel for Petitioner
August 21, 2019

